     SER.VICES
     S'ERvrCëS



(~v,.                 DEPARTMENT OF HEALTH &. HUMAN SERVICES                                                                  Office of
                                                                                                                                     of Inspector
                                                                                                                                        Inspector General
                                                                                                                                                  General
~~.~~
(" ;ø DEPARTMENT OF HEALTH & HUMA SERVICES

~~
 :lr..ll/"'d30
                                                                                                                              Washington, D.C.
                                                                                                                              Washington, D.C. 20201
                                                                                                                                               20201




                                                                     MAR 10
                                                                     MAR 10 2009
                                                                             2009

                 TO:                     Charlene Frizzera



                                          ~ý~
                                         Acting Administrator
                                         Centers for Medicare &
                                                              & Medicaid
                                                                Medicaid Services
                                                                         Services

                                          ~y~
                       ~~:~h
                 FROM: ~~:~h E. E.Vengrin
                                   Vengrin
                          Deputy Inspector General
                                           General for
                                                   for Audit Services
                                                             Services


                 SUBJECT: Allowability of of
                            Allowability  Alabama's Hurricane
                                             Alabama's HurricaneKatrina-Related
                                                                 Katrina-RelatedUncompensated
                                                                                 Uncompensated
                            Care Claims (A-04-08-03040)


                 The attached final report provides the results of
                                                                of our review of
                                                                               of the allowability
                                                                                      allowability of
                                                                                                   of Alabama's
                                                                                                       Alabama's
                 Hurricane Katrina-related uncompensated care claims.
                                                                   claims. We
                                                                            We will
                                                                               will issue
                                                                                    issue this
                                                                                          this report
                                                                                               report to the Alabama
                 Medicaid Agency
                 Medicaid           (the State
                           Agency (the    Stateagency) within
                                                 agency)       5 business
                                                          within           days. days. ..
                                                                   5 business


                 In response to Hurricane Katrina, section 6201 of the Deficit Reduction Act of2005 authorized
                 In response to Hurricane Katrina, section 6201 of                                                                  authorized
                 Federal funding for the total costs of              of medically necessary uncompensated care furnished to
                 evacuees and affected individuals without other coverage in eligible States; i.e., States that
                 provided
                 provided       care
                          care to       to suchunder
                                  such individuals individuals      underUnder
                                                      section 1115 projects.  section
                                                                                  section 1115
                                                                                          1115 of projects. Under section 1115 of the Social

                 Security Act, Act, the Centers for Medicare &               & Medicaid Services (CMS) approved Alabama's      Alabama's request
                                                                                                                                          request
                       demonstration authority
                 for demonstration             authority related to    to Hurricanes
                                                                           Hurricanes KatrinaKatrina and
                                                                                                       and Rita.
                                                                                                           Rita. In
                                                                                                                  In accordance
                                                                                                                     accordance with the
                 State's uncompensated
                             uncompensated care      care pool
                                                           pool (UCCP)
                                                                    (UCCP) plan, plan, CMSCMS authorized
                                                                                                  authorized the
                                                                                                              the State
                                                                                                                   Stateto
                                                                                                                         to reimburse
                                                                                                                             reimburse providers
                                                                                                                                       providers
                 that incurred uncompensated care costs for medically necessary services and supplies for
                 Hurricane Katrina
                 Hurricane        Katrina evacuees
                                               evacuees and and affected
                                                                   affected individuals
                                                                               individuals and    and Hurricane
                                                                                                      Huricane Rita
                                                                                                                 Rita evacuees
                                                                                                                       evacuees who did not
                 have other coverage.
                                   coverage. As    As of
                                                       ofDecember
                                                           December 31,      31, 2006,
                                                                                 2006, the the State
                                                                                                 State agency
                                                                                                       agency reported
                                                                                                               reported payments
                                                                                                                          payments totaling
                 $1.7 million to 484 health care providers for 9,752 uncompensated care claims.

                 Our objective was
                                was to determine whether the State agency claimed reimbursement for services
                 supplied by five
                              five providers who received high UCCP reimbursement amounts (high-dollar
                 providers) in accordance with the approved section 1115 demonstration and UCCP plan.

                 The State agency generally claimed reimbursement for services supplied by five high-dollar
                 providers
                 providers in
                            in accordance
                               accordance with
                                           with the
                                                the approved
                                                    approved section
                                                               section 1115
                                                                       1115 demonstration
                                                                             demonstrationand
                                                                                           andUCCP
                                                                                               UCCPplan.
                                                                                                      plan. Of
                 the 227 claims totaling $771,386 that we reviewed, 218 claims totaling $744,554 were
                 allowable.   However, the
                 allowable. However,    the remaining
                                            remaining nine
                                                       nine claims
                                                            claims totaling
                                                                    totaling $26,832 were unallowable because the
                 individuals who
                              who received
                                   received the services were not from an area affected by Hurricane Katrina or
                 Rita (five
                      (five claims),
                            claims), had
                                     had health care coverage under other programs (three claims), or did not
                 provide an address that could be used to establish eligibility (one claim).
Page 2 – Charlene Frizzera


One other claim totaling $15,878 was allowable as a UCCP claim. However, the State agency
inappropriately used this claim in its Medicaid disproportionate share hospital (DSH) calculation.

The State agency claimed unallowable reimbursement because it did not always follow its
procedures for verifying individuals’ addresses and eligibility for services. Also, the State
agency did not always ensure that uncompensated care claims reimbursed from the UCCP were
not used in the calculation of uncompensated care claims for the Medicaid DSH program.

We recommended that the State agency:

   •   refund to CMS $26,832 paid to providers for unallowable uncompensated care claims;

   •   consider reviewing the 9,525 claims that were not included in our sample to ensure that
       the claims met applicable reimbursement requirements and, if appropriate, make a refund
       to CMS; and

   •   determine the effect of incorrectly including a claim reimbursed under the UCCP in the
       hospital-specific DSH calculation and make an appropriate adjustment on Form CMS-64.

Because authority for the UCCP has expired, we are not making procedural recommendations.

In comments on our draft report, the State agency concurred with our first recommendation and
did not address our second recommendation. With respect to our third recommendation, the
State agency said that the hospital would have received only a small payment from the inclusion
of the UCCP claim in the hospital-specific DSH calculation. The State agency further stated that
it was exempt from making DSH payments directly to hospitals and that DSH payments were
made to prepaid health plans.

After reviewing the State agency’s comments, we revised our third recommendation to indicate
that the State agency should make an appropriate adjustment on Form CMS-64, rather than an
adjustment to the hospital’s DSH reimbursement. Our second recommendation remains valid.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact George M. Reeb, Assistant Inspector General for the Centers for
Medicare & Medicaid Audits, at (410) 786-7104 or through e-mail at George.Reeb@oig.hhs.gov
or Peter J. Barbera, Regional Inspector General for Audit Services, Region IV, at (404) 562-7750
or through e-mail at Peter.Barbera@oig.hhs.gov. Please refer to report number A-04-08-03040.


Attachment
                          DEPARTMENT                 OFSERVICES
                          DEPARTMENT OF HEALTH AND HUMAN HEALTH Offce AND HUMAN SERVICES                 Office of
                                                                                                                of Inspector
                                                                                                                   Inspector General
  ~ SERViCES.                                                                                             Office   of Audit Services
                                                                                                           Offce of
..~"'~~ ~
                                                                                                               REGION IV
~,~
                                                                                                               REGION

                                                                                                   61
                                                                                                   61 Forsytb Street, S.W.,
                                                                                                      Forsytb Street, S.W., Suite
                                                                                                                            Suite 3T41
                                                                                                                                  3T41

~ -l
                                                                                                   Atlanta,
                                                                                                        Atlanta Georgia
                                                                                                                  Georgia 30303
                                                                                                                           30303



                                                           MAR16
                                                           MAR     2009
                                                               16 2009

          Report Number:
          Report Number: A-04-08-03040

          Ms. Carol H. Steckel
          Commissioner
          Alabama Medicaid Agency
          501 Dexter Avenue
          501
          Montgomery, Alabama
          Montgomery,   Alabama 36103-5624
                                36103-5624

          Dear Ms. Steckel:

          Enclosed
          Enclosed is the is
                          U.S.the  U.S.of Department of Health
                               Deparment                         Health and
                                                                         and Human  Services (HHS),
                                                                             Human Services   (HHS), Office  ofInspector
                                                                                                       Offce ofInspector

          General (OIG),(OIG), final
                                   final report entitled "Allowability of      of Alabama's
                                                                                  Alabama's Hurricane
                                                                                              Hurricane Katrina-Related
                                                                                                         Katrina-Related
          Uncompensated
          Uncompensated Care Claims."Care    Claims."
                                      We wil forward a copy ofWe
                                                              
  will forward a copy of this report to the HHS action official
          noted on the following page for review and any action deemed necessary.

              HHS action official
          The HHS           official will
                                     wil make
                                          make final
                                                 final determination
                                                        determination as
                                                                      as to
                                                                          to actions
                                                                             actions taken
                                                                                      taken on
                                                                                             on all
                                                                                                 all matters
                                                                                                     matters reported.
                                                                                                               reported.
                           you respond
          We request that you   respond toto this
                                             this official within
                                                           within 30
                                                                  30 days
                                                                     days from
                                                                            from the
                                                                                  the date
                                                                                       date of
                                                                                            of this
                                                                                                this letter.
                                                                                                      letter. Your
        . response should present any comments or additional information that you believe may have a
          bearing on the final determination.

          Pursuant to
          Pursuant  to the
                        the Freedom
                            FreedomofInformation
                                       ofInformation Act,
                                                       Act,S5 U.S.c.
                                                              U.S.c. §§ 552,OIG
                                                                        552,OIGreports
                                                                                    reports generally
                                                                                             generally are
                                                                                                       are made
                                                                                                           made
                            public to the extent that information in the report is not subject to exemptions in
          available to the public
              Act. Accordingly, this report wil
          the Act.                             willbe
                                                    beposted
                                                       postedononthe
                                                                  the Internet
                                                                       Internet at
                                                                                at http://oig.hhs.gov.
                                                                                   http://oig.hhs.gov.

          If you have any questions or comments about this report, please do not hesitate to call me, or
                       Drake, Audit Manager, at (404) 562-7755 or through e-mail at
          contact John Drake,
          John.Drakeêoig.hhs.gov. Please
          John.Drake@oig.hhs.gov.    Pleaserefer
                                            refertotoreport
                                                      reportnumber
                                                             numberA-04-08-03040
                                                                    A-04-08-03040ininall
                                                                                      allcorrespondence.
                                                                                          correspondence.

                                                                Sincerely,

                                                               (p~:tOJ~
                                                                Peter J. Barbera
                                                                Regional Inspector General
                                                                 for Audit Services


          Enclosure
Page 2 – Ms. Carol H. Steckel


Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, Illinois 60601
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




 ALLOWABILITY OF ALABAMA’S
HURRICANE KATRINA-RELATED
UNCOMPENSATED CARE CLAIMS




                    Daniel R. Levinson
                     Inspector General

                       March 2009
                      A-04-08-03040
                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                             Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. § 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

In response to Hurricane Katrina, section 6201 of the Deficit Reduction Act of 2005 authorized
Federal funding for the total costs of medically necessary uncompensated care furnished to
evacuees and affected individuals without other coverage in eligible States; i.e., States that
provided care to such individuals under section 1115 projects.

Under section 1115 of the Social Security Act, the Centers for Medicare & Medicaid Services
(CMS) approved Alabama’s request for demonstration authority related to Hurricanes Katrina
and Rita and allowed the State to reimburse providers that incurred uncompensated care costs for
medically necessary services and supplies for evacuees who did not have other coverage. In
accordance with the State’s uncompensated care pool (UCCP) plan, CMS authorized
reimbursement from the pool for services provided to Hurricane Katrina evacuees and affected
individuals and Hurricane Rita evacuees who did not have coverage under Medicare, Medicaid,
the State Children’s Health Insurance Program, private insurance, State-funded health insurance
programs, or public or private hurricane relief efforts. Reimbursement was limited to services
provided from August 24, 2005, through January 31, 2006, for Hurricane Katrina and from
September 23, 2005, through January 31, 2006, for Hurricane Rita. The pool was 100 percent
federally funded.

As of December 31, 2006, the Alabama Medicaid Agency (the State agency) reported payments
totaling $1.7 million to 484 health care providers for 9,752 uncompensated care claims. The
State agency claimed reimbursement for these payments on the “Quarterly Medicaid Statement
of Expenditures for the Medical Assistance Program” (Form CMS-64).

OBJECTIVE

Our objective was to determine whether the State agency claimed reimbursement for services
supplied by five providers who received high UCCP reimbursement amounts (high-dollar
providers) in accordance with the approved section 1115 demonstration and UCCP plan.

SUMMARY OF FINDINGS

The State agency generally claimed reimbursement for services supplied by five high-dollar
providers in accordance with the approved section 1115 demonstration and UCCP plan. Of
the 227 claims totaling $771,386 that we reviewed, 218 claims totaling $744,554 were
allowable. However, the remaining nine claims totaling $26,832 were unallowable because the
individuals who received the services were not from an area affected by Hurricane Katrina or
Rita (five claims), had health care coverage under other programs (three claims), or did not
provide an address that could be used to establish eligibility (one claim).

One other claim totaling $15,878 was allowable as a UCCP claim. However, the State agency
inappropriately used this claim in its Medicaid disproportionate share hospital (DSH) calculation.




                                                i
The State agency claimed unallowable reimbursement because it did not always follow its
procedures for verifying individuals’ addresses and eligibility for services. Also, the State
agency did not always ensure that uncompensated care claims reimbursed from the UCCP were
not used in the calculation of uncompensated care claims for the Medicaid DSH program.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund to CMS $26,832 paid to providers for unallowable uncompensated care claims;

   •   consider reviewing the 9,525 claims that were not included in our sample to ensure that
       the claims met applicable reimbursement requirements and, if appropriate, make a refund
       to CMS; and

   •   determine the effect of incorrectly including a claim reimbursed under the UCCP in the
       hospital-specific DSH calculation and make an appropriate adjustment on Form CMS-64.

Because authority for the UCCP has expired, we are not making procedural recommendations.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our first
recommendation and did not address our second recommendation. With respect to our third
recommendation, the State agency said that the hospital would have received only a small
payment from the inclusion of the UCCP claim in the hospital-specific DSH calculation. The
State agency further stated that it was exempt from making DSH payments directly to hospitals
and that DSH payments were made to prepaid health plans. The State agency’s comments are
included in their entirety as Appendix B.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the State agency’s comments, we revised our third recommendation to indicate
that the State agency should make an appropriate adjustment on Form CMS-64, rather than an
adjustment to the hospital’s DSH reimbursement. Our second recommendation remains valid.




                                              ii
                                                  TABLE OF CONTENTS


                                                                                                                                   Page

INTRODUCTION.......................................................................................................................1

          BACKGROUND ..............................................................................................................1
              Section 1115 Hurricane-Related Demonstration Projects ....................................1
              Alabama’s Approved Uncompensated Care Pool Plan ........................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY ............................................................2
               Objective ...............................................................................................................2
               Scope.....................................................................................................................2
               Methodology .........................................................................................................3

FINDINGS AND RECOMMENDATIONS .............................................................................4

          UNCOMPENSATED CARE POOL PLAN REQUIREMENTS.....................................4

          UNALLOWABLE CLAIMS............................................................................................4

          PROCEDURES FOR ELIGIBILITY VERIFICATION NOT FOLLOWED ..................5

          RECOMMENDATIONS..................................................................................................5

          STATE AGENCY COMMENTS.....................................................................................6

          OFFICE OF INSPECTOR GENERAL RESPONSE .......................................................6

APPENDIXES

          A – COSTS CLAIMED BY THE ALABAMA MEDICAID AGENCY
                AND COSTS DETERMINED UNALLOWABLE/ALLOWABLE

          B – STATE AGENCY COMMENTS




                                                                    iii
                                               INTRODUCTION

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

Section 1115 Hurricane-Related Demonstration Projects

Section 1115 of the Act permits the Secretary to authorize demonstration projects to promote the
objectives of the Medicaid program. Under section 1115, CMS may waive compliance with any
of the requirements of section 1902 of the Act and provide Federal matching funds for
demonstration expenditures that would not otherwise be included as expenditures under the
Medicaid State plan.

In response to Hurricane Katrina, CMS announced that States could apply for section 1115
demonstration projects to ensure the continuity of health care services for hurricane victims. A
State with an approved hurricane-related section 1115 demonstration project was eligible under
section 6201 of the Deficit Reduction Act of 2005 (DRA) for Federal payment of the total costs
of uncompensated care incurred for medically necessary services and supplies furnished to
Hurricane Katrina evacuees and affected individuals 1 who did not have other coverage for such
assistance.

Alabama’s Approved Uncompensated Care Pool Plan

In a September 22, 2005, letter, CMS approved Alabama’s request for section 1115
demonstration authority related to Hurricane Katrina. In a March 24, 2006, letter, CMS
approved Alabama’s uncompensated care pool (UCCP) plan and authorized reimbursement from
the UCCP for services provided from August 24, 2005, through January 31, 2006. Specifically,
the March letter authorized Alabama to reimburse providers that incurred uncompensated care
costs for medically necessary services and supplies for Katrina evacuees and affected individuals
who did not have coverage under Medicare, Medicaid, the State Children’s Health Insurance
Program (SCHIP), private insurance, State-funded health insurance programs, or public or
private hurricane relief efforts. In an April 28, 2006, letter, CMS amended the section 1115
demonstration to authorize Alabama to operate a UCCP for providers serving Hurricane Rita
evacuees who did not have Medicaid, SCHIP, or other health insurance coverage.
Reimbursement for these evacuees was authorized for services provided from September 23,
2005, through January 31, 2006.


1
 The DRA defines an evacuee as an affected individual who was displaced to another State. An affected individual
is defined as an individual who resided in an assistance designation county and continues to reside in the same State.


                                                          1
The State’s approved UCCP plan stated that reimbursement for services provided to uninsured
individuals affected by Hurricane Katrina would be limited to those services available in the
amount, scope, and duration defined in the State Medicaid plan as of August 24, 2005, with some
exception for expanded diagnosis codes for mental health services. For those affected by
Hurricane Rita, CMS approved services in accordance with the State plan in place on
September 23, 2005. Only Medicaid providers were eligible for reimbursement. Providers were
required to attest that all services were medically necessary and that they were unaware of any
other source of payment. The plan limited reimbursement for dental and eye care and durable
medical equipment to medical emergencies. In addition, the UCCP plan specified that
uncompensated care claims paid through the UCCP could not be counted as uncompensated care
costs in the Medicaid hospital-specific disproportionate share hospital (DSH) limit. 2

The Alabama Medicaid Agency (the State agency) administered the UCCP, which was
100 percent federally funded. As of December 31, 2006, the State agency reported $1.7 million
in payments to 484 health care providers for 9,752 uncompensated care claims. The State
agency claimed reimbursement for these payments on the “Quarterly Medicaid Statement of
Expenditures for the Medical Assistance Program” (Form CMS-64).

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency claimed reimbursement for services
supplied by five providers who received high UCCP reimbursement amounts (high-dollar
providers) in accordance with the approved section 1115 demonstration and UCCP plan.

Scope

Our review covered 227 uncompensated care claims totaling $771,386 that the State agency paid
to five providers and claimed for Federal reimbursement as of December 31, 2006. (See
Appendix A for the providers’ names.) The 227 claims included all 197 uncompensated care
claims from four providers ($767,820) and 30 of the 194 uncompensated care claims from another
provider ($3,566 of $15,783). These claims had dates of service from August 24, 2005, through
January 31, 2006, for Hurricane Katrina evacuees and affected individuals and from September 23,
2005, through January 31, 2006, for Hurricane Rita evacuees.

We did not assess the State agency’s overall internal controls. We limited our review to gaining
an understanding of those controls related to uncompensated care claims paid in accordance with
the hurricane-related section 1115 waiver and the State’s UCCP plan.




2
 The Omnibus Budget Reconciliation Act of 1981 (codified in section 1923 of the Social Security Act) established
the Medicaid DSH program to help ensure that States provide adequate financial support to hospitals that serve a
significant number of low-income patients with special needs. The Omnibus Budget Reconciliation Act of 1993
limited these payments to a hospital’s uncompensated care costs, known as the hospital-specific limit.


                                                        2
We conducted our fieldwork from March to July 2008 at the State agency in Montgomery,
Alabama, and at four of the five selected providers in Mobile and Birmingham, Alabama. We
also obtained UCCP claim information from the provider that we did not visit.

Methodology

To accomplish our objective, we:

   •   reviewed Federal laws, approval letters, and the State’s approved UCCP plan;

   •   interviewed State agency and provider personnel;

   •   obtained the State agency’s database of uncompensated care claims paid to providers as
       of December 31, 2006, which consisted of 9,752 paid claims totaling $1.7 million;

   •   verified that all paid uncompensated care claims were included on Form CMS-64 for our
       audit period;

   •   selected from the State agency’s database a judgmental sample of 227 paid claims
       totaling $771,386 (197 claims from four providers with high reimbursement amounts and
       30 of the 194 claims from the provider with the highest reimbursement amount among
       physicians); and

   •   reviewed supporting documentation for each selected claim to verify that:

          o the patient did not have health insurance coverage for the service under Medicare,
            Medicaid, SCHIP, private insurance, or a State-funded health insurance program
            by using the providers’ access to an online insurance verification program
            maintained by the State;

          o the patient did not receive the service or item from a public or private hurricane
            relief effort by checking the Federal Emergency Management Agency’s disaster
            relief database;

          o the patient’s home address was within one of the individual assistance designation
            counties listed in an attachment to the UCCP plan;

          o the service occurred between August 24, 2005, and January 31, 2006, for
            Hurricane Katrina evacuees and affected individuals and between September 23,
            2005, and January 31, 2006, for Hurricane Rita evacuees;

          o the service was covered by the State plan and the claim was paid at the
            appropriate rate based on the State’s Medicaid fee schedule or per diem rates;

          o dental and eye care and durable medical equipment were related to a medical
            emergency; and


                                               3
           o uncompensated care claims paid through the UCCP were not counted in
             calculating the hospital-specific DSH limit.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                         FINDINGS AND RECOMMENDATIONS

The State agency generally claimed reimbursement for services supplied by five high-dollar
providers in accordance with the approved section 1115 demonstration and UCCP plan. Of
the 227 claims totaling $771,386 that we reviewed, 218 claims totaling $744,554 were
allowable. However, the remaining nine claims totaling $26,832 were unallowable because the
individuals who received the services were not from an area affected by Hurricane Katrina or
Rita (five claims), had health care coverage under other programs (three claims), or did not
provide an address that could be used to establish eligibility (one claim).

One other claim totaling $15,878 was allowable as a UCCP claim. However, the State agency
inappropriately included this claim in its Medicaid hospital-specific DSH calculation.

The State agency claimed unallowable reimbursement because it did not always follow its
procedures for verifying individuals’ addresses and eligibility for services. Also, the State
agency did not always ensure that uncompensated care claims reimbursed from the UCCP were
not used in the calculation of uncompensated care claims for the Medicaid DSH program.

UNCOMPENSATED CARE POOL PLAN REQUIREMENTS

Alabama’s approved UCCP plan limited Federal reimbursement to Hurricane Katrina evacuees
and affected individuals and Hurricane Rita evacuees who did not have coverage under
Medicare, Medicaid, SCHIP, private insurance, State-funded health insurance programs, or
public or private hurricane relief efforts. Coverage was limited to individuals who resided in
areas designated as individual assistance counties or parishes on or before August 24, 2005, for
Hurricane Katrina and September 23, 2005, for Hurricane Rita. The UCCP plan stated that
“[h]ospitals should be advised that uncompensated care claims paid through the UCCP cannot be
counted as uncompensated in the hospital-specific disproportionate share hospital (DSH) limit as
defined in Section 1923(g)(1)(A) of the Social Security Act.”

UNALLOWABLE CLAIMS

Contrary to the provisions of the approved UCCP plan, the State agency reimbursed four
providers for nine unallowable claims totaling $26,832:




                                               4
   •   Five claims totaling $4,928 were unallowable because the individuals who received the
       services had not resided in an area designated as an individual assistance county or
       parish.

   •   Two claims totaling $3,042 were unallowable because the individuals who received the
       services had health care coverage under the Workers’ Compensation Program.

   •   One claim totaling $14,048 was unallowable because the Medicare program had paid for
       the services.

   •   One claim totaling $4,814 was unallowable because the individual who received the
       services did not provide an address that could be used to establish eligibility.

Appendix A contains information, by provider, on these unallowable costs.

One other claim totaling $15,878 was allowable as a UCCP claim. However, the State agency
inappropriately used this claim in its Medicaid DSH calculation.

PROCEDURES FOR ELIGIBILITY VERIFICATION NOT FOLLOWED

The State agency was responsible for ensuring that only allowable claims were paid from the
UCCP. CMS’s September 22, 2005, letter approving section 1115 demonstration authority and
allowing the State to reimburse providers for uncompensated care costs required the State to
“establish mechanisms to prevent payments from the pool on behalf of individuals who have
coverage for services, or for whom other options are available.” Under the State’s UCCP plan,
the providers submitted attestations that they were not aware of any other source of payment.

The State agency relied on the providers’ attestations, and, although the State agency had
procedures to verify those attestations, the State agency did not always follow its procedures by
verifying individuals’ addresses and eligibility for services. Also, the State agency did not
always ensure that uncompensated care claims reimbursed from the UCCP were not used in the
calculation of uncompensated care claims for the Medicaid DSH program.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund to CMS $26,832 paid to providers for unallowable uncompensated care claims;

   •   consider reviewing the 9,525 claims that were not included in our sample to ensure that
       the claims met applicable reimbursement requirements and, if appropriate, make a refund
       to CMS; and

   •   determine the effect of incorrectly including a claim reimbursed under the UCCP in the
       hospital-specific DSH calculation and make an appropriate adjustment on Form CMS-64.



                                                5
Because authority for the UCCP has expired, we are not making procedural recommendations.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our first
recommendation and did not address our second recommendation. With respect to our third
recommendation, the State agency said that the hospital would have received only a small
payment from the inclusion of the UCCP claim in the hospital-specific DSH calculation. The
State agency further stated that it was exempt from making DSH payments directly to hospitals
and that DSH payments were made to prepaid health plans. The State agency’s comments are
included in their entirety as Appendix B.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the State agency’s comments, we revised our third recommendation to indicate
that the State agency should make an appropriate adjustment on Form CMS-64, rather than an
adjustment to the hospital’s DSH reimbursement. Our second recommendation remains valid.




                                              6
APPENDIXES
                                                                                           APPENDIX A


                               COSTS CLAIMED BY THE
                   ALABAMA MEDICAID AGENCY AND COSTS DETERMINED
                             UNALLOWABLE/ALLOWABLE


                             University                                                     USA
                              of South                                                    Children’s
                             Alabama         Rehabilitation     Mobile                       and
                              Medical        and Healthcare   Infirmary     Cardiology    Women’s
                               Center        of Birmingham    Association   Consultants    Hospital    Total

Amount claimed                 $181,500         $46,154         $213,508     $15,783        $326,658   $783,603

Amount reviewed                $181,500         $46,154         $213,508      $3,566        $326,658   $771,386

Unallowable amount:
  Other insurance coverage      $        0       $14,048           $3,042     $   0          $     0    $17,090
  Geographic ineligibility           5,498             0            3,969     $ 275                0      9,742


Total unallowable amount            $5,498      $14,048            $7,011     $ 275          $     0    $26,832

Allowable amount               $176,002         $32,106         $206,497      $3,291        $326,658   $744,554

Number of claims submitted             70             7                98        194              22       391

Number of claims reviewed              70             7                98         30              22       227

Number of unallowable
claims                                  2             1                 3          3               0           9
APPENDIX B
